                                                ~
                      Closeout of ~ 9 3 0 4 0 0 2 3

This case was- received in OIG on April 14, 1993. It was brousht to




officer noted the similarity
                           - of this idea to others that have been
submitted to the program.     In particular, a colleague of the
subject had reviewed an NSF proposal containing such an idea.
OIG learned that since approaching the program officer the subject
hasnot submitted any proposal to NSF. Unless he does so, there is
no point in raising the question whether he has put stolen research
ideas into an NSF proposal. Therefore the case is being closed
because no action has taken place that can be construed as
misconduct in science. If the subject submits a proposal in the
future that contains material of the kind described, the matter may
be reopened.




April 26, 1993


Copy: IG
      Assistant IG for Oversight
